Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
David Franklin Klein
Counsel of Record
Pillsbury Winthrop Shaw Pittman LLP
1200 17th Street NW
Washington, DC 20036
202-663-8000
david.klein@pillsburylaw.com
Christopher W. Tompkins
Betts, Patterson & Mines, P.S.
701 Pike Street, Suite 1400
Seattle, WA 98101
206-292-9988
ctompkins@bpmlaw.com

